No.

20=541

ORIGINAL
FILED
0CT 1 3 2020

IN THE
SUPREME COURT OF THE UNITED STATES

JAMES MACDONALD — PETITIONER
vs.
LOUIS KEMPINSKY, et al. — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE

PETITION FOR WRIT OF CERTIORARI

JAMES MACDONALD
(Your Name)
7095 Hollywood Blvd, #327
(Address)
Los Angeles, CA, 90028
(City, State, Zip Code)
323-906-7561
(Phone Number)

RECEIVED
OCT 2 3 2020

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

QUESTION®) PRESENTED

l) Once again, the California SLAPP LAW has denied due process, denied equal
protection, denied access to the Courts, penalized those petitioning for redress and
denied even limit rights of discovery to defend against Defendants’ SLAPP
motions. Plaintiff was denied discovery to prove allegations of material false
statements in a verified complaint and to prove Defendants’ fraud regarding false
statements and other false evidence submitted in the Defendants’ SLAPP motions.
The SLAPP law has created unequal access to the Courts by allowing the wellconnected and wealthy to get away with abuses, while burdening those who
petition the Courts for redress with hundreds of thousands of dollars in SLAPP
attorney fees. This has created a major public policy perception that you cannot
seek justice in California and has been the subject of many articles.
a. SLAPP law was declared unconstitutional in the States of Washington
and Minnesota, as a violation of due process resulting from substantial
abuses of the law. This has resulted in unequal protection of due process
between the States. The U.S. Supreme Court is asked to intervene and
remedy this unequal treatment in California and between the states.
b. The California law on its face, denies full discovery completely and only
allows limited discover if the Court approves it, which is seldom granted,
1

c. and denies the Petitioner the right to amend a complaint, even though
corrections or other causes of action may make the complaint viable.
MacDonald was twice denied the right to limited discovery in two
separate SLAPP hearings to depose the Defendants about their false
statements in a verified complaint and their false statements in their
declarations in the two SLAPP Motions. Instead, the Court accepted
these statements at true and correct and ruled against Plaintiff.
California's SLAPP Law violates the California Constitution and the U.S.
Constitution by denying the right to due process. Defendants filed a false
verified complaint and filed an unauthorized false petition and then false
declarations in the SLAPP to protect those frauds. Plaintiff was denied
any rights to defend himself and uncover the fraud in the SLAPP motion
hearings.

n

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1) Defendant, Respondent Louis Kempinsky, an Individual
2) Defendant, Respondent Kempinsky Law Office, a Professional Corporation
Counsel for Louis Kempinsky and Kempinsky Law Office, a Professional Corp:
Kaufman Dolowich & Voluck LLP
Phone (310) 755-6511
Andrew J. Waxier & Courtney Curtis-Ives
Fax (310) 525-9720
11755 Wilshire Boulevard, Suite 2400
Los Angeles, CA 90025
3) Defendant, Respondent Martin D. Singer, an Individual
4) Defendant, Respondent LAVELY & SINGER, a Professional Corporation
5) Defendant, Respondent Andrew Brettler, an Individual
Counsel for Martin D. Singer, LAVELY & SINGER, a Professional Corporation,
and Andrew Brettler:
Jonathan B. Cole, Esq., Michael McCarthy, Esq., Mark Schaeffer, Esq.
NEMECEK & COLE
16255 Ventura Blvd Ste 300
Encino, CA 91436-2300
(818) 788 9500, (818) 501 0328 Fax
7) Defendant, Respondent Shereen Arazm, an Individual
8) Defendant, Respondent David Hilty, an Individual
9) Defendant, Respondent OOC Hollywood 1, LLC an Nevada Corporation:
Counsel for Shereen Arazm and David Hilty and OOC Hollywood 1, LLC:
Gaglione, Dolan & Kaplan
Phone (310) 231-1600
Robert Dolan & Amy Cooper
Fax (310) 231-1610
11377 West Olympic Blvd, 10th Floor
Los Angeles, CA 90064

in

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

LIST OF PARTIES

in

OPINIONS BELOW

4

JURISDICTION.

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

6

BACKGROUND / STATEMENT OF THE CASE

9

LEGAL ARGUEMENTS GRANTING THE WRIT

10

CONCLUSION.

17

CERTIFICATE OF WORD COUNT.

18

INDEX TO APPENDICES
APPENDIX A DECISION OF STATE COURT OF APPEALS

APP.1-9

APPENDIX B CALIFORNIA SUPREME COURT DENIAL OF REVIEW

APP.10

2

TABLE OF AUTHORITIES CITED

Cases
Demjanjuk v. Petrovsky, 10 F.3d 338, 348 (6th Cir. 1993).........................................

13

Hazel-Atlas Glass Co. v. HartfordEmpire Co., 322 U.S. 238, 64 S.Ct. 997 (1944
Hazel-Atlas, 322 U.S. at 244............................................................................................
Kenner v. C.I.R., 387 F.3d 689 (1968); 7........................................................................

13
13

Pusey, Estate of, 57 Cal Dec, 467,181 Pac. 648.................................................
See People v. Cahill (AQ$S) 5 Cal.4th 478, 488..................................................
Supreme Courts of Washington (Davis v Cox, NO. 90233-0, May 28 2013)

12
12

13
Kenner v. Comm'r ofInternal Revenue, 387 F.2d 689, 691 (7th Cir. 1968)............
13
Minnesota Supreme Court (Leiendecker, et al, v Asian Women United ofMinnesota, et al.,
May 24, 201f)........................................................................................................
8

8

Statutes
California SLAPP Law, California Civil Procedure 425.16.
CBPC S 6104 FALSE APPEARANCE...................................

5
14

Other Authorities
Article VI, section 13, the California Constitution.............................................................
Article VI, section 4%, Constitution......................................................................................
CCP §425.16................................................................................................................. ...............
CPC §132, §134, §118................................................................................................................
Moore's Federal Practice, 2d ed., p. 512, f 60.23................................................................
New Complete Digest of the Decisions of the Supreme Courts, Volume 1, Page 1028
United States Constitution, First Amendment.....................................................................
United States Constitution, Fourteenth Amendment..........................................................
United States Constitution, Seventh Amendment...............................................................

3

11
12
8
8
13
13
4
5
5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
, or,
[ ] has been designated for publication but is not yet reported! or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported! or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is California Appeals Court:
[ ] reported at
> or,
[ ] has been designated for publication but is not yet reported! or,
[X] is unpublished.

4

to

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ---------------------------------- .
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ------------------, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including (date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

[X] For cases from state courts:
[x] The date on which the highest state court decided my case was Jan. 24,
2020, A copy of that decision appears at Appendix A.
[x] No petition for rehearing was timely filed in my case.
[x] A petition for review with the California Supreme Court was
thereafter denied on the following date: May
13,2020, and a copy of the order denying review appears at Appendix B.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

5

WHY REVIEW SHOULD BE GRANTED?

The SLAPP law was designed to protect the public from lawsuits, filed to harass
and intimidate their opponents. In this case, SLAPP law is being used by the abuser
who filed multiple malicious and falsely verified lawsuits only to dismiss the
complaints after four long years after the frauds were uncovered in those actions.
Having lost in the underlying action, the Defendants have scored big with the SLAPP
fees awarded in this suit, while continuing with their filing of false statements, false
declarations in the SLAPP motion and false petitions without the client’s approval.
The Supreme Court of the State of Washington, in 2015 and the Supreme Court of
Minnesota in 2017, struck down their SLAPP laws because of abuse by Attorneys and
Trial Courts. The US Supreme Court should intervene and strike down the California
SLAPP law as a violation of due process and equal protection.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

l) United States Constitution, First Amendment, the right to petition is
guaranteed by the First Amendment to the United States Constitution, which
specifically prohibits abridging "the right of the people...to petition the Government for a
redress of grievances".
2) United States Constitution, Fourteenth Amendment and Equal Protection. The
6

14th Amendment affords equal protection. Under the 14th Amendment, 'all persons
born or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they reside. No state shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of
the laws'.
3) United States Constitution, Seventh Amendment to the United States
Constitution. This amendment codifies the right to a jury trial in certain civil cases.
4) United States Supreme Court supervisory powers over State Courts.
5) California SLAPP Law, California Civil Procedure 425.16.
(a) The Legislature finds and declares that there has been a disturbing
increase in lawsuits brought primarily to chill the valid exercise of the
constitutional rights of freedom of speech and petition for the redress of
grievances. The Legislature finds and declares that it is in the public interest to
encourage continued participation in matters of public significance, and that this
participation should not be chilled through abuse of the judicial process. To this
end, this section shall be construed broadly.
(b) (l) A cause of action against a person arising from any act of that person in
furtherance of the person’s right of petition or free speech under the United States
Constitution or the California Constitution in connection with a public issue shall
be subject to a special motion to strike, unless the court determines that the
plaintiff has established that there is a probability that the plaintiff will prevail on
the claim.
(2) In making its determination, the court shall consider the pleadings, and
supporting and opposing affidavits stating the facts upon which the liability or
defense is based.
(3) If the court determines that the plaintiff has established a probability that
he or she will prevail on the claim, neither that determination nor the fact of that
7

determination shall be admissible in evidence at any later stage of the case, or in
any subsequent action, and no burden of proof or degree of proof otherwise
applicable shall be affected by that determination in any later stage of the case or
in any subsequent proceeding.
(c) (l) Except as provided in paragraph (2), in any action subject to subdivision
(b), a prevailing defendant on a special motion to strike shall be entitled to recover
his or her attorney’s fees and costs. If the court finds that a special motion to strike
is frivolous or is solely intended to cause unnecessary delay, the court shall award
costs and reasonable attorney’s fees to a plaintiff prevailing on the motion,
pursuant to Section 128.5.
(2) A defendant who prevails on a special motion to strike in an action subject
to paragraph (l) shall not be entitled to attorney’s fees and costs if that cause of
action is brought pursuant to Section 6259, 11130, 11130.3, 54960, or 54960.1 of
the Government Code. Nothing in this paragraph shall be construed to prevent a
prevailing defendant from recovering attorney’s fees and costs pursuant to
subdivision (d) of Section 6259, or Section 11130.5 or 54960.5, of the Government
Code.
(d) This section shall not apply to any enforcement action brought in the name
of the people of the State of California by the Attorney General, district attorney,
or city attorney, acting as a public prosecutor.
(e) As used in this section, “act in furtherance of a person’s right of petition or
free speech under the United States or California Constitution in connection with
a public issue” includes^ (l) any written or oral statement or writing made before a
legislative, executive, or judicial proceeding, or any other official proceeding
authorized by law. (2) any written or oral statement or writing made in connection
with an issue under consideration or review by a legislative, executive, or judicial
body, or any other official proceeding authorized by law. (3) any written or oral
statement or writing made in a place open to the public or a public forum in
connection with an issue of public interest, or (4) any other conduct in furtherance
of the exercise of the constitutional right of petition or the constitutional right of
free speech in connection with a public issue or an issue of public interest.
(£) The special motion may be filed within 60 days of the service of the
complaint or, in the court’s discretion, at any later time upon terms it deems
proper. The motion shall be scheduled by the clerk of the court for a hearing not
more than 30 days after the service of the motion unless the docket conditions of
the court require a later hearing.
(g) All discovery proceedings in the action shall be stayed upon the filing of a
notice of motion made pursuant to this section. The stay of discovery shall remain
in effect until notice of entry of the order ruling on the motion. The court on
8

noticed motion and for good cause shown, may order that specified discovery be
conducted notwithstanding this subdivision.
(h) For purposes of this section, “complaint” includes “cross-complaint” and
“petition,” “plaintiff’ includes “cross-complainant” and “petitioner,” and
“defendant” includes “cross-defendant” and “respondent.”
(i) An order granting or denying a special motion to strike shall be appealable
under Section 904.1.
(j) (l) Any party who files a special motion to strike pursuant to this section,
and any party who files an opposition to a special motion to strike, shall, promptly
upon so filing, transmit to the Judicial Council, by e-mail or facsimile, a copy of the
endorsed, filed caption page of the motion or opposition, a copy of any related
notice of appeal or petition for a writ, and a conformed copy of any order issued
pursuant to this section, including any order granting or denying a special motion
to strike, discovery, Or fees.
(2) The Judicial Council shall maintain a public record of information
transmitted pursuant to this subdivision for at least three years, and may store
the information on microfilm or other appropriate electronic media.

FACTUAL AND PROCEDURAL BACKGROUND:
MacDonald filed a lawsuit after he was dismissed and was prevailing party from
the underling actions. MacDonald sued for malicious prosecution, abuse of process and
conspiracy to commit fraud on the court by filing numerous false documents with the
court, include false statements in a verified complaint and filing a false petition
without the authority of the client. Defendants then used false declarations in the
SLAPP motion, resulting in this petition.

9

LEGAL DISCUSSION
l) SLAPP laws have been declared unconstititional, as a violation of due process, by
the State of Washington and Minnesota. The state Supreme Courts of Washington
(Davis v Cox, NO. 90233-0, May 28 201S) and Minnesota Supreme Court
(Leiendecker, et al, v. Asian Women United ofMinnesota, et al., May 24, 2017)
have declared their SLAPP laws as un-Constitutional, as a violation of due
process.
2) Plaintiff was denied discovery twice at the trial court and denied any right to
prove his claims that Defendants filed false verified complaints and also filed false
lawsuits without the permission of the client. The alleged Client has provided
declarations stating that they did not authorize the Attorney to file the petition
nor send the original letter and draft petition, but the Attorney files a declaration
in the SLAPP motion claiming both as “True and Correct” (a felony violation of
CPC §132, §134, §115, §118), which is a fraud on the court, is the Attorney’s
criminal actions protected under California’s SLAPP Law and is a fee award valid?
3) MacDonald’s Expert Witness in a related case, former California Supreme Court
Justice, Cruz Reynoso, reviewed the documents in the related case. Justice
Reynoso states that Defendants continuing to assert documents as “TRUE and
CORRECT” in future hearings is unethical and unlawful. In this case, the
Defendants continue to assert false appearance by an attorney as “TRUE AND
CORRECT”.
10

4) Does client and an attorney who files material false statements in a verified
complaint have those actions protected under California’s SLAPP Law (CCP
§425.16)? According to this ruling, yes. There were two SLAPP motions. While the
record was incomplete one of the hearings, the record was complete on the second.
The Appeals Court errors in its citation of the record. MacDonald’s petition stated
that the verified complaint was a fraud on the court and specified the false
statements made in the complaint. This is not a protected activity under SLAPP
and is not a lawful petitioning activity and the Supreme Court should not allow
the SLAPP law to deny access to the courts, giving attorneys and their clients
immunity from malicious prosecution and abuse of process for their frauds on the
court.
5) MacDonald had specified the entire court docket in his original designation of
record. The clerk misfiled the transcript multiple times and omitted numerous
documents and created an incorrect index. In addition, there were seven duplicate
volumes as part of the transcript with 20 volume in total. This resulted in
confusion by MacDonald as to the completeness of the record. When MacDonald
discovered documents were missing, he obtained copies of the missing documents
and MacDonald motioned to the Appeals Court to correct the transcript for the
omitted documents but the Appeals Court denied the correction of the record.
The Supreme Court favors arguments based on the merits of a case, not Trial
Court Clerk errors.
11

6) MacDonald elects to use the AOB rather than the Opinion. Several points in the
Second Appellate District’s Opinion misstate MacDonald's position and, therefore,
set the stage for a flawed conclusion. Because the result is premised on arguments
MacDonald did not make or otherwise state that MacDonald forfeited arguments,
and this case is contrary to the laws of State of California, a review is required.
ERRORS IN THE OPINION
The OPINION STATEMENT fails to mention that the Appeals Court denied
MacDonald’s motion to fix the record for the omitted items. MacDonald correctly
designated the documents in his original Designation of Record. Because of multiple
filing errors by the Trial Court Clerk, the record was incomplete and had an incorrect
index resulting in MacDonald mistakenly believing the record was complete. When
MacDonald discovered the error, he obtained the missing documents so the Clerk did
not have to augment the record for a fifth time and MacDonald motioned to correct the
record. MacDonald’s motion was denied.
The OPINION STATEMENT regarding the record is incorrect since the missing
documents only affected one of the two SLAPP motions. The first SLAPP motion had a
complete record.
The OPINION STATEMENT argues that the filing of a verified complaint with
false material statements, as alleged in MacDonald’s complaints, is a protected
activity. This is a fraud on the court and thus is unprotected.
12

The OPINION STATEMENT does not address Justice Reynoso’s expert witness
declaration that the Attorney’s asserting false appearance as true and correct is a
crime. The awarding SLAPP Fees based on fraud is unconstitutional and creates the
public perception that only the rich and well connected can have a trial in California.
The OPINTION STATEMENT does not address the argument made by
MacDonald that one of the impossibly logic arguments is that a verified complaint
with material and knowingly false statements made to harass and made to in order to
maintain otherwise untenable claims is protected by SLAPP. Instead, the Appeals
Courts states that the filing of a false verified petition is protected by SLAPP and after
it is discovered and the case is dismissed, MacDonald has no remedy for the malicious
prosecution and abuse of process. This effectively give attorneys and rich clients
unlimited power to use the Courts in an unlawful way to vex and harass.
There is a GROSS MISCARRIAGE OF JUSTICE in this case. Defendants filed a
false VERIFIED complaint and also filed a lawsuit without the permission of the
client. The Defendants then offered false evidence as TRUE AND CORRECT in
multiple hearings including these SLAPP motions, committing crime after crime
against MacDonald and the Court:
Appealability when there is a gross miscarriage of justice. In Article VI,
section 13, the California Constitution provides: “Mo judgment shall be set
aside, or new trial granted, in any cause, on the ground of misdirection of the
jury, or of the improper admission or rejection of evidence, or for any error as to
any matter of pleading, or for any error as to any matter ofprocedure, unless,
after an examination of the entire cause, including the evidence, the court shall
be of the opinion that the error complained of has resulted in a miscarriage of
13

justice.” This provision is derived from former Article VI, section 4V2,
Constitution. (See People v. Cahill(1993) 5 Cal.4th 478, 488.) Under this
provision, determining whether a procedural error has resulted in a miscarriage
of justice in most instances “will depend upon an appellate court’s evaluation of
the effect of the error in light of the evidence at trial. . . .” (Id. at p. 491.) In
some instances, however, an error may result in a miscarriage of justice
regardless of the strength of the evidence. (Ibid) In this latter category are
certain structural errors that deny the defendant a fundamental constitutional
right or otherwise do not lend themselves to ordinary harmless error analysis.
(Id. at p. 493)

The U.S. Supreme Court should review this case since due process, equal access,
discovery, an unabridged right to petition the courts, and a fair trial of the evidence
used in a SLAPP motion are being violated by the California SLAPP law.
The fraud uncovered by MacDonald, and despite MacDonald’s expert witness, a
former California Supreme Court Justice, Cruz Reynoso, who provided the following
expert opinion relevant to both the SLAPP and Extrinsic Fraud Motions, [CT:Vol.l2p.2828-2831}'With respect to the issue of whether it is unethical and unlawful for
counsel to file an action without the client's consent, I am of the opinion that
such a filing is unethical, is a crime and is not a constitutionally protected
activity. I note that two declarants, Mike Malin and Lonnie Moore declare that
counsel has filed an action without consent of the client. I am also of the opinion
that it is unethical and unlawful for an attorney to continue to falsely assert he
had authority to file the action in subsequent hearings on the matter, when
client did not grant consent. "

"A judgment which is void may be attacked directly or collaterally either by
parties or strangers - Pusey, Estate of, 57 Cal Dec, 467,181 Pac. 648." See New
Complete Digest of the Decisions of the Supreme Courts, Volume 1, Page 1028.
14

"The fabrication of evidence by a party in which an attorney is implicated, will
constitute a fraud on the court." IcL at 1338 (citing to Hazel-Atlas Glass Co. v.
Hartford-Empire Co., 322 U.S. 238, 64 S.Ct. 997 (1944)).
"Fraud upon the court" has been defined to "embrace that species of fraud which
does, or attempts to, defile the court itself, or is a fraud perpetrated by officers of the
court so that the judicial machinery cannot perform in the usual manner its impartial
task of adjudging cases that are presented for adjudication." Kenner v. C.I.R., 387 F.3d
689 (1968); 7 Moore's Federal Practice, 2d ed., p. 512, Tf 60.23. The 7th Circuit further
stated "a decision produced by fraud upon the court is not in essence a decision at all.
and never becomes final." It is also clear and well-settled law that any attempt to
commit "fraud upon the court" vitiates the entire proceeding.
Fraud on the court included material false statements in a verified complaint.
There is no statute of limitations for bringing a fraud upon the court claim. HazelAtlas, 322 U.S. at 244. "A decision produced by fraud on the court is not in essence a
decision at all and never becomes final."

Kenner v. Comm'r ofInternal Revenue, 387

F.2d 689, 691 (7th Cir. 1968).
Sixth Circuit, Demjanjuk v. Petrovsky, 10 F.3d 338, 348 (6th Cir. 1993) This
standard recognizes that fraud upon the court, unlike perjury, need not be based on
affirmative misstatements, but may be based on nondisclosures, and need not be based
on proof of subjective knowledge of falsity, but may be founded on a showing of willful
blindness or reckless disregard for the truth.
15

The follow additional penal codes have been violated in this case and the
underlying case resulting in Plaintiff’s abuse of process and malicious prosecution
claims^
CPC § 132 — OFFERING FALSE EVIDENCE Every person who upon any trial,
proceeding, inquiry, or investigation whatever, authorized or permitted by law, offers
in evidence, as genuine or true, any book, paper, document, record, or other
instrument in writing, knowing the same to have been forged or fraudulently altered
or ante-dated, is guilty of felony.
CPC § 134 — PREPARING FALSE EVIDENCE Every person guilty of preparing
any false or ante-dated book, paper, record, instrument in writing, or other matter or
thing, with intent to produce it, or allow it to be produced for any fraudulent or
deceitful purpose, as genuine or true, upon any trial, proceeding, or inquiry whatever,
authorized by law, is guilty of felony.
CBPC 6128(a) ATTORNEY DECEIT: California law prohibiting attorneys from
deceiving any party, a misdemeanor.
CPC § 115 - FILING A FALSE PETITION (a) Every person who knowingly
procures or offers any false or forged instrument to be filed, registered, or recorded in
any public office within this state, which instrument, if genuine, might be filed,
registered, or recorded under any law of this state or of the United States, is guilty of a
felony.
CBPC § 6104 FALSE APPEARANCE - Malin v. Singer violates California law
prohibiting attorneys from falsely appearing for a client, “anyone who [c]orruptly or
wilfully and without authority [appears] as [an] attorney for a party to an action or
proceeding [may be subject to] disbarment or suspension.” “An attorney may not even
appear in a cause of action without some form of authority from the party in whose
behalf he appears.” Loftberg v. Aetna Cas. & Sur. Co., 264 Cal. App. 2d 306, 308, 70
Cal. Rptr. 269, 270 (1968).

16

CONCLUSION
Therefore, the petition for a writ of certiorari should be granted.

Respectfully submitted.

/s/ James MacDonald
James MacDonald, Plaintiff, Petitioner
Date: October 13, 2020

17

